No.

 

IN THE
Supreme Court of the United States

F DALY,
Petitioner,
Vv.
STATE OF MAINE,
Respondent.
On Petition for a Writ of Certiorari to

the Maine Supreme Judicial Court
Sitting as the Law Court

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Throughout the proceedings in the state court below, petitioner has been
represented by court-appointed counsel because of his indigent status. Pursuant to

Rule 39.1, copy of the order appointing that counsel is appended heret

 

 

Dated August 27, 2021 Rory A. McNamara
Counsel of Record for Petitioner
Drake Law, LLC
P.O. Box 143
York, ME 03909
rory@drakelawllc.com
STATE OF MAINE
Location PENOBSCOT CRIMENAh DOCKET
Docket No, PENCD-CR-2018-00286

STATE OF MAINE
ve NOTICE OF APPOINTMENT

F DALY

30 OHIO ST

APT 3

BANGOR ME 04401

The purpose of this notice is to inform you, F DALY that your court-appointed attorney is:

RORY MCNAMARA Appt Date:07/24/2020
PO BOX 143

YORK ME 03909

TEL: (207) 475-7830

YOU MUST CONTACT YOUR ATTORNEY IMMEDIATELY to make an appointment to discuss your case.

If you fail to do so you may miss important deadlines and make it more difficult for your
attorney to assist you

You must contact this Court if there are any changes in your address or financial
status, Failure to do so could result in a violation of a court order and criminal
prosecution,

|

 

I£ you should have any questions, please contact the court at:

PENOBSCOT COUNTY SUPERIOR COURT
78 EXCHANGE S'TREET

BANGOR, ME 04401-4913

TEL(207) 561-2300
TTY: (711) -

Date: 07/29/2020 Sik: SALaK.

Clerk

 

Page 1 of 1
CR-197, Rev. 06/15

 
